CERTIFICATION
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,954 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 15, 2019

s/John M. Castellano
JOHN M. RYAN
Acting District Attorney,
Queens County
*JOHN M. CASTELLANO
ROBERT J. MASTERS
JOSEPH N. FERDENZI
CHRISTOPHER BLIRA-OESSLER
Assistant District Attorneys
* Counsel of Record

